TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Computer Programming Changes Are Needed
                   to Reduce Delays in Reissuing Some
                       Undelivered Refund Checks



                                         August 22, 2008

                              Reference Number: 2008-30-155




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  August 22, 2008


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Computer Programming Changes Are Needed to
                               Reduce Delays in Reissuing Some Undelivered Refund Checks
                               (Audit # 200730002)

 This report presents the results of our review to determine the frequency of occurrence and the
 reasons why tax refund checks returned as undeliverable were later reissued to the same
 addresses to which notices were delivered to taxpayers asking for updated address information.
 This audit was part of our discretionary audit coverage and was included in the Treasury
 Inspector General for Tax Administration Fiscal Year 2007 Annual Audit Plan.

 Impact on the Taxpayer
 When the United States Postal Service (USPS) determines that a tax refund check is
 undeliverable because the address to which the check was sent is not the taxpayer’s current or
 correct address, the check is returned to the Financial Management Service.1 The Internal
 Revenue Service (IRS) corresponds with the taxpayer to try to obtain a current address, even in
 some cases when the IRS already has an updated address on record for the taxpayer.2 This
 process delays receipt of the refund by the taxpayer, and the IRS generally does not pay interest
 to the taxpayer for the time required to get the refund check reissued. We identified
 14,759 taxpayer accounts in Calendar Year 2007 in which reissued refund checks were delayed
 because the IRS unnecessarily corresponded with taxpayers for new addresses they already had.

 1
   The bureau in the Department of the Treasury that acts as the Federal Government’s money manager.
 2
   According to the IRS web site (IRS.gov), some post offices do not forward Federal Government checks. When a
 taxpayer changes his or her address, providing notification to the post office that services the old address ensures
 that the taxpayer’s mail will be forwarded. However, this notification might not affect delivery of the taxpayer’s
 refund check(s). The IRS sends a notice to the address it has on record because the notice will be forwarded to the
 taxpayer’s new address.
                          Computer Programming Changes Are Needed to
                    Reduce Delays in Reissuing Some Undelivered Refund Checks



The IRS needs to ensure that undelivered refund checks are reissued promptly to taxpayers with
updated addresses already on record.

Synopsis
From two judgmental samples of IRS notices sent to and returned by taxpayers whose refund
checks were returned by the USPS as undeliverable, we found that some taxpayers indicated that
the address to which the notice was mailed was, in fact, their current address. Working with the
IRS, we determined that many of the notices were not sent to the same addresses as the original
undelivered refund checks because these taxpayers had address changes posted to their accounts
between the time the original refund checks were issued and the time the checks were returned as
undeliverable. Therefore, although these taxpayers had informed the IRS of their new addresses,
the IRS did not reissue their refund checks to these new addresses. Rather, the IRS sent notices
to their new addresses asking them for new addresses. As a result, these taxpayers received
unnecessary notices and experienced avoidable delays in receiving their refund checks.
To determine how often this condition was occurring, we developed a computer program to
identify all individual and business accounts on the IRS Master File3 that met the following
criteria:
    •   A refund check was returned as undeliverable for an account in Calendar Year 2007.
    •   An address change occurred between the date on which the original refund check was
        issued and the date on which it was returned as undeliverable.
We identified 8,134 individual and 6,625 business accounts that met these criteria. The
undelivered refund checks on these accounts averaged $1,829 for individual taxpayers and
$5,093 for business taxpayers. They totaled almost $15 million for individuals and $34 million
for businesses.
We estimate that over a 5-year period, 73,795 taxpayers could be burdened by being asked to
provide information the IRS already has and by having delivery of their refund checks delayed.
We also estimate that the IRS could incur additional expenses of $36,160 to mail the notices.
This could occur because the IRS has not properly programmed its computer system to reissue
undelivered refund checks when it has new addresses on record for the affected taxpayers.




3
 The Master File is the IRS database that stores various types of taxpayer account information. This database
contains individual, business, and employee plans and exempt organizations data.
                                                                                                                2
                         Computer Programming Changes Are Needed to
                   Reduce Delays in Reissuing Some Undelivered Refund Checks



This issue was brought to the attention of the IRS in a prior Treasury Inspector General for Tax
Administration report,4 and the IRS implemented computer programming changes to correct the
situation. However, the programming changes did not fully correct the problem. In addition, the
IRS implemented no programming corrections for business accounts.

Recommendation
We recommended that the Commissioner, Wage and Investment Division, revise computer
programming to automatically reissue an undelivered refund check when an address change is
reflected on a taxpayer’s account between the date on which the check was originally issued and
the date on which it is returned as undeliverable. Finally, the programming should be
implemented on both individual and business accounts.

Response
IRS management agreed with our recommendation. A programming change to implement the
recommendation was submitted on June 27, 2008, with a requested operational date of
January 15, 2010. Management’s complete response to the draft report is included as
Appendix V.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Acting
Assistant Inspector General for Audit (Small Business and Corporate Programs), at
(202) 622-8510.




4
 Advance Refunds Were Accurately Calculated and Issued to Eligible Taxpayers, But Some Undelivered Refunds
Were Unnecessarily Delayed (Reference Number 2002-40-116, dated June 2002).
                                                                                                             3
                             Computer Programming Changes Are Needed to
                       Reduce Delays in Reissuing Some Undelivered Refund Checks




                                               Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Some Taxpayers Are Receiving Unnecessary Notices and
          Delayed Refund Checks................................................................................Page 3
                    Recommendation 1: .................................................................... Page 5


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 6
          Appendix II – Major Contributors to This Report ........................................Page 8
          Appendix III – Report Distribution List .......................................................Page 9
          Appendix IV – Outcome Measures...............................................................Page 10
          Appendix V – Management’s Response to the Draft Report .......................Page 11
             Computer Programming Changes Are Needed to
       Reduce Delays in Reissuing Some Undelivered Refund Checks




                     Abbreviations

FMS            Financial Management Service
IRS            Internal Revenue Service
USPS           United States Postal Service
                          Computer Programming Changes Are Needed to
                    Reduce Delays in Reissuing Some Undelivered Refund Checks




                                             Background

When tax returns and refunds are processed by the Internal Revenue Service (IRS), any
associated refund checks are ultimately generated to taxpayers through the Financial
Management Service (FMS). The FMS is a bureau of the Department of the Treasury and acts as
the Federal Government’s money manager. Tax refund checks issued by the FMS are mailed to
taxpayers through the United States Postal Service (USPS). If the USPS determines that a refund
check is undeliverable because the address to which the check was sent is not the taxpayer’s
current or correct address, the check is returned to the FMS. When the FMS receives the
returned refund check, it notifies the IRS.
Once the IRS receives this information, it sends a notice1 to the affected taxpayer. This notice is
mailed to the address the IRS has on record for the taxpayer.2 It states, “A refund check mailed
to you at the above address has been returned by the Postal Service as undeliverable. To have
the check reissued to you, we need to know your current address.” The figure below shows the
volumes of undelivered refund check notices issued by the IRS in Calendar Years 2004 – 2007.

                                Undelivered Refund Check Notice Volumes

                                400,000

                                300,000

                                200,000

                                100,000

                                        0
                                             2004       2005      2006        2007
                               Individual 279,007 296,102 323,919 334,745
                               Business     33,253     38,235     74,697     54,340


                   Source: IRS Office of the Notice Gatekeeper.



1
  Individual Undelivered Refund Check notice (CP 31); Business Undelivered Refund Check notice (CP 231).
CP = Computer Paragraph.
2
  According to the IRS web site (IRS.gov), some post offices do not forward Federal Government checks. When a
taxpayer changes his or her address, providing notification to the post office that services the old address ensures
that the taxpayer’s mail will be forwarded. However, this notification might not affect delivery of the taxpayer’s
refund check(s). The IRS sends a notice to the address it has on record because the notice will be forwarded to the
taxpayer’s new address.
                                                                                                              Page 1
                         Computer Programming Changes Are Needed to
                   Reduce Delays in Reissuing Some Undelivered Refund Checks



The taxpayer is instructed to fill in the information requested and to sign and return the notice
within the next few days. When the IRS receives the notice with the new address information, it
updates the taxpayer’s address and reissues the refund check. During Calendar Year 2007, there
were 334,745 individual and 54,340 business refund checks returned by the USPS as
undeliverable.
Employees at the IRS Campus3 in Ogden, Utah, advised us that some large-dollar refund checks
(in excess of $1 million) returned to the IRS as undeliverable appeared to have been
subsequently reissued to taxpayers at the same addresses from which the checks had been
originally returned as undeliverable. This seemed to indicate that some checks were being
unnecessarily returned as undeliverable by the USPS.
We conducted our review at the Ogden Campus during the period November 2006 through
April 2008. This review included analysis of undelivered refund check notice cases worked in
the Wage and Investment Division Accounts Management offices in Holtsville, New York;
Cincinnati, Ohio; and Ogden, Utah. It also included review of taxpayer account information
nationwide. We conducted this review in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




3
 Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                        Page 2
                          Computer Programming Changes Are Needed to
                    Reduce Delays in Reissuing Some Undelivered Refund Checks




                                       Results of Review

Some Taxpayers Are Receiving Unnecessary Notices and
Delayed Refund Checks
We reviewed 2 judgmental samples of IRS notices sent to and returned by taxpayers whose
refunds were returned as undeliverable (400 notices returned by individuals and 485 notices
returned by business taxpayers). We found that 42 (10.5 percent) of the 400 individuals and 145
(30 percent) of the 485 business taxpayers indicated that the addresses to which the notices had
been mailed were, in fact, their current addresses.
Because these taxpayers were indicating that their correct addresses were the same as the
addresses to which the notices were sent, our initial assumption was that the USPS had returned
the refund checks as undeliverable by mistake. However, working with the IRS, we determined
that 134 of these notices (15 percent of our total sample size of 885) were not sent to the same
addresses as the original undelivered refund checks.
IRS employees researching these cases on the FMS Treasury Check Information System4 found
that many of the taxpayers had address changes posted to their accounts between the date on
which the original refund check was issued and the date on which the check was returned as
undeliverable.5 Thus, the notice had been sent to the newer address. We verified and agreed
with the IRS’ analysis of these cases. Therefore, although these taxpayers had informed the IRS
of their new addresses, the IRS did not reissue their refund checks to their new addresses.
Instead, the IRS sent notices to their new addresses, asking them for a new address. These
taxpayers received unnecessary notices and experienced avoidable delays in receiving their
refunds.
To determine how often this condition was occurring, we developed a computer program to
identify all individual and business accounts on the IRS Master File6 that met the following
criteria: 1) a refund check was returned as undeliverable for an account in Calendar Year 2007
and 2) an address change occurred between the date on which the original refund check was
issued and the date on which it was returned as undeliverable. We identified 8,134 individual
and 6,625 business accounts that met these criteria. The undelivered refund checks on these

4
  The Treasury Check Information System records and reconciles the worldwide issuance and payment of
Department of the Treasury checks.
5
  This is generally the result of a taxpayer moving and notifying the IRS of the move, or the result of a taxpayer
filing a tax return that contains an updated address.
6
  The Master File is the IRS database that stores various types of taxpayer account information. This database
contains individual, business, and employee plans and exempt organization data.
                                                                                                               Page 3
                         Computer Programming Changes Are Needed to
                   Reduce Delays in Reissuing Some Undelivered Refund Checks



accounts averaged $1,829 for individual taxpayers and $5,093 for business taxpayers. They
totaled almost $15 million for individuals and $34 million for businesses.

Unnecessary notices
As discussed earlier, the IRS currently sends a notice to each taxpayer whose refund check has
been returned by the USPS as undeliverable. The notice tells the taxpayer that a refund check
mailed to the address on the notice was returned by the USPS as undeliverable and asks the
taxpayer to furnish the IRS with a current address. The 8,134 individual taxpayers and
6,625 business taxpayers identified by our computer extract had already provided the IRS with
updated address information. In addition, the information on the notice sent to each of these
taxpayers was incorrect because the refund check in question had never been sent to the address
on the notice. Instead, it had been sent to the taxpayer’s old address.
Taxpayers are incurring burden by being asked to provide information the IRS already has, and
the IRS is incurring additional expenses to mail the notices. The IRS spends approximately
49 cents to mail each notice. Based on the results of our computer extracts, 14,759 taxpayers
experienced increased burden responding to unnecessary notices and the IRS spent just over
$7,200 unnecessarily to issue these notices in Calendar Year 2007.7

Delayed refund checks
Sending notices to taxpayers asking for address information that the IRS already has on record
creates financial burden on the taxpayers by delaying receipt of their refunds. In addition, these
taxpayers are not compensated for the additional time the Federal Government has use of their
monies. While the IRS was not responsible for the original refund checks being sent to the
wrong addresses, it did have the information necessary to reissue the checks without sending
notices to the taxpayers. Therefore, the IRS was responsible for at least part of the delay the
taxpayers experienced in receiving their refunds. Based on our computer extract, issuance of
notices to these taxpayers unnecessarily added an average of 45 calendar days for individual
taxpayers and an average of 66 calendar days for business taxpayers to receive their refunds.
Unnecessary notices are being sent and receipt of refund checks is being delayed because the
IRS has not properly programmed its computer system to reissue undelivered refund checks
when it has new addresses on record for the affected taxpayers. This issue was brought to the
attention of the IRS in a prior Treasury Inspector General for Tax Administration report,8 and the
IRS implemented computer programming changes to correct the situation.
However, the programming changes did not fully correct the problem. A taxpayer can change
his or her address with the IRS in a variety of ways, each of which is recorded on the taxpayer’s

7
 See Appendix IV for details.
8
 Advance Refunds Were Accurately Calculated and Issued to Eligible Taxpayers, But Some Undelivered Refunds
Were Unnecessarily Delayed (Reference Number 2002-40-116, dated June 2002).
                                                                                                     Page 4
                          Computer Programming Changes Are Needed to
                    Reduce Delays in Reissuing Some Undelivered Refund Checks



account with a specific transaction code.9 For example, an address change resulting from the
filing of a tax return with a new address is recorded on a taxpayer’s account with a Transaction
Code 152. Several such transaction codes (including Transaction Code 152) were not included
in the programming changes made by the IRS to correct the problem when it was originally
reported. In addition, the IRS implemented no programming corrections for business accounts.
The Internal Revenue Manual states that taxpayers should receive interest in cases in which a
refund check is undeliverable through the fault of the Government. In the cases we identified,
the IRS was not notified of the address changes until after the initial refunds were processed, and
was therefore not at fault for the undelivered refund checks. However, the IRS was at fault for
the delay in reissuing the refunds caused by unnecessarily corresponding with taxpayers for new
addresses. If the IRS revised its computer programs to automatically reissue these undelivered
refund checks when an address change is reflected on a taxpayer’s account, the taxpayers would
realize the earnings benefit of having received their refunds from 45 to 66 days sooner. Based on
the number of cases identified from our computer extract and the published risk-free rates of
return for 2007,10 we estimate that these benefits total almost $79,000 for the individual
taxpayers experiencing delays and approximately $262,000 for the business taxpayers
experiencing delays in 2007.11 Foregoing these benefits further adds to the burden on the 14,759
taxpayers identified by our computer extracts.

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should revise
computer programming to automatically reissue an undelivered refund check when an address
change is reflected on a taxpayer’s account between the date on which the refund check was
issued and the date on which it was returned as undeliverable. The programming should be
implemented on both individual and business accounts.
         Management’s Response: IRS management agreed with this recommendation. A
         programming change to implement the recommendation was submitted on June 27, 2008,
         with a requested operational date of January 15, 2010.




9
  Transaction code is a three-digit code used to identify actions being taken on the taxpayer’s account.
10
   The risk-free rate of return is defined as the rate of return an individual could realize on investments in 3-month
United States Treasury bonds.
11
   Interest was computed from the date on which the IRS generated the notices to the taxpayers to the date on which
the refund checks were reissued.
                                                                                                              Page 5
                         Computer Programming Changes Are Needed to
                   Reduce Delays in Reissuing Some Undelivered Refund Checks



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the frequency of occurrence and the
reasons why tax refund checks returned as undeliverable were later reissued to the same
addresses to which notices were delivered to taxpayers asking for updated address information.1
To accomplish our objective, we:
I.      Determined the procedures used by the IRS for reissuing undelivered refund checks by
        reviewing applicable Internal Revenue Manual guidelines and procedures and by
        interviewing IRS personnel associated with processing the undelivered checks.
II.     Determined whether undelivered refund checks were being reissued to taxpayers whose
        addresses had not changed.
        A. Obtained a sample of actual Business and Individual Undelivered Refund Check
           notices that were being worked at the IRS campuses starting in January 2007. We
           obtained2 a judgmental sample of 485 Business Undelivered Refund Check notices
           (CP 231) from the Ogden, Utah, and Cincinnati, Ohio, IRS Campuses.3 We also
           obtained4 a judgmental sample of 400 Individual Undelivered Refund Check
           notices (CP 31) from the Cincinnati and Brookhaven, New York, Campuses. The
           judgmental samples represented approximately 1 month of Business and Individual
           Undelivered Refund notices worked by the Campuses at the time we selected our
           sample.
        B. Analyzed the notices to identify each taxpayer account for which the undelivered
           refund check was reissued to the address on the notice.


1
  Our original objective was to determine how often and why undelivered refund checks were reissued to the same
addresses as the ones to which the original checks were sent. Based on initial findings, our objective changed
slightly.
2
  The sample of business notice cases was selected from notices worked by Ogden, Utah, IRS employees during
January 2007 and Cincinnati, Ohio, IRS employees during March 2007.
3
  We selected judgmental samples for business and individual computer paragraph (CP) notices because statistical
samples would have required that all items in the population have an equal chance of being selected. The notice
cases from our sample are worked by IRS Campus employees on an ongoing basis throughout the year. After a case
is worked, it is destroyed. At the time our samples were taken, the populations of cases were unknown, and some
cases were unavailable for sample selection. Campuses are the data processing arm of the IRS. They process paper
and electronic submissions, correct errors, and forward data to the Computing Centers for analysis and posting to
taxpayer accounts.
4
  The sample of individual notice cases was selected from notices worked by Cincinnati and Brookhaven IRS
employees during May 2007.
                                                                                                         Page 6
                          Computer Programming Changes Are Needed to
                    Reduce Delays in Reissuing Some Undelivered Refund Checks



        C. Provided the IRS with results from our analyses. Based on results from the IRS
           analysis, we also analyzed the sample cases to identify those accounts on which an
           address change had occurred between the date of the original refund check and the
           date on which the check was returned as undeliverable.
III.    Determined the significance of taxpayer addresses being changed between the date of the
        original refund check and the date on which the check was returned as undeliverable.
        A. Used computer programs to identify all individual and business accounts on the IRS
           Master File5 for which an address change occurred between the date of the original
           refund check and the date on which the check was returned as undeliverable (refunds
           issued in Calendar Year 2007).
        B. Validated, verified, and assessed the reliability of computer-processed data received
           in the Step III.A. by comparing the relevant data (refund dates and amounts,
           undelivered check dates and amounts, and address change dates and transactions)
           from the computer request to information on the IRS Master File.
        C. From the accounts identified by our computer programs, determined the number of
           individual and business accounts affected, the average refund amounts, and the
           average time required to reissue the refunds for the accounts.
        D. Determined the cost to send notices to the affected taxpayers.
        E. Determined the cost to taxpayers resulting from having their refunds delayed.




5
 The Master File is the IRS database that stores various types of taxpayer account information. This database
contains individual, business, and employee plans and exempt organizations data.
                                                                                                           Page 7
                      Computer Programming Changes Are Needed to
                Reduce Delays in Reissuing Some Undelivered Refund Checks



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle R. Andersen, Director
Larry Madsen, Audit Manager
Annette Bates, Lead Auditor
L. Jeff Anderson, Senior Auditor
Judith Harrald, Information Technology Specialist
Richard Hilleson, Information Technology Specialist




                                                                                       Page 8
                     Computer Programming Changes Are Needed to
               Reduce Delays in Reissuing Some Undelivered Refund Checks



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Director, Office of Legislative Affairs CL:LA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                               Page 9
                       Computer Programming Changes Are Needed to
                 Reduce Delays in Reissuing Some Undelivered Refund Checks



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Cost Savings – Potential; $36,160 (over 5 years) in undelivered refund check notices for
    14,759 taxpayer accounts (see page 3).

Methodology Used to Measure the Reported Benefit:
The IRS currently sends a notice to each taxpayer whose refund check has been returned by the
USPS as undeliverable. The notice asks the taxpayer to furnish the IRS with a current address.
We identified 14,759 taxpayer accounts (8,134 individual and 6,625 business) for which the IRS
already had updated address information prior to issuance of the notice. These addresses had
been changed between the date on which the original refund check was issued and the date on
which the check was returned as undeliverable.
Because the IRS already had current addresses for the 14,759 taxpayers, notices were sent to
these taxpayers unnecessarily. Based on IRS figures, we found that the estimated cost to send
each notice was $.49. The total cost to send the 14,759 notices was $7,232 (14,759 x $.49). We
projected this amount over 5 years.

Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 73,795 taxpayers (over 5 years) (see page 3).

Methodology Used to Measure the Reported Benefit:
As discussed above, the IRS unnecessarily sent 8,134 individual and 6,625 business notices to
taxpayers, delaying the refunds of individual taxpayers an average of 45 calendar days and
business taxpayers an average of 66 calendar days.




                                                                                          Page 10
          Computer Programming Changes Are Needed to
    Reduce Delays in Reissuing Some Undelivered Refund Checks



                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 11
      Computer Programming Changes Are Needed to
Reduce Delays in Reissuing Some Undelivered Refund Checks




                                                     Page 12
